4

No. 20-1450

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL C. MURPHY, PETITIONER
VS.
ESTATE OF GLORIA KAY MURPHY-WALLACE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
COURT OF APPEALS OF TENNESSEE
PETITION FOR REHEARING

Michael C. Murphy, Pro Se
P.O. Box 1365
Morristown, TN 37816
(423) 581-1022

PETITION FOR REHEARING

Comes the Petitioner, Michael C. Murphy, and petitions the Court for a rehearing of the
denial of the Petition for Certiorari of June 14,2021.

The substantial ground not previously expounded upon is the effect on persons on both
sides of a legal issue similarly situated to Plaintiffs, Defendants, Appellants, and Appellees
in Tennessee state courts wherein the judges can subjectively dismiss cases via
Tenn.R.Civ.P.59.01 ad 59.04, and Tenn.R.App.P. 4(b), by simply labeling them as “motions
for reconsideration” and declaring that they do not toll appeal periods, leaving the litigants
without recourse from a civil rights perspective to seek and pursue their legal cause absent
being subjectively denied jurisdiction to the courts.

For instance, the trial court judge who initially denied Plaintiffs September 13, 2019,
Motion for New Trial stated in her December 19,2019, Order (No.lO.P.3) that she felt it
was improper for Plaintiff to mention in his Motion (No.lO,P.2) that the jury was made up
of 11 women and 1 man (12 women if you consider the Alternate Juror allowed into the
jury room to participate in the majority of the jury deliberations). It is respectfully
suggested that the trial judge showed gender bias toward Plaintiff and it was reflected in
her subsequent adverse decision of February 18,2020, utilizing Tenn.R.Civ.P.59.01 and
59.04. The previously field petition for Certiorari of April 13,2021, with Appendix, is
hereby adopted herein by reference.

It is respectfully submitted that the Petition for Rehearing be granted.

Respectfully Submitted:

ynJL4 C.
MICHAEL C. MURPHY, Pro Se
P.O. Box 1365
Morristown, TN 37816
(423) 581-1022

CERTIFICATION
I certify and declare that the Petition for Rehearing is restricted to the grounds specified
in Rule 44.2 and that it is presented in good faith and not for delay, and further declare
under penalty of perjury that the foregoing is true and correct.

MICHAEL C. MURPHY, Pro Se

